         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Site Inspection Report


       American Recovery and
       Reinvestment Act Site Inspection
       of the High-Rate Water Treatment
       Facility, City of Newark, Ohio
       Report No. 10-R-0147

       June 16, 2010
Report Contributors:                              Richard Howard
                                                  Lisa McCowan
                                                  Leah Nikaidoh




Cover photo: Wastewater treatment facility under construction at the City of Newark, Ohio.
             (EPA OIG photo)
                       U.S. Environmental Protection Agency 	                                             10-R-0147
                                                                                                       June 16, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review	           American Recovery and Reinvestment Act
The U.S. Environmental
                                  Site Inspection of the High-Rate Water
Protection Agency’s Office of     Treatment Facility, City of Newark, Ohio
Inspector General conducts
site visits of American            What We Found
Recovery and Reinvestment
Act of 2009 (Recovery Act)        We conducted an onsite inspection of the water treatment project in the City of
clean water and drinking water    Newark, Ohio, in December 2009. As part of our inspection, we toured the
projects. We selected a           project, interviewed City representatives and contractor personnel, and reviewed
project in the City of Newark,    documentation related to Recovery Act requirements.
Ohio, for review.
                                  Based upon our site inspection, nothing came to our attention that would require
Background                        action from the City, the State of Ohio, or the U.S. Environmental Protection
                                  Agency.
The City received a
$20,360,232 loan from the
Ohio Environmental
Protection Agency and the
Ohio Water Development
Authority under the Clean
Water State Revolving Fund
program. This amount
included $5,000,000 in
Recovery Act funds for
principal forgiveness. The
City will construct a high-rate
treatment facility at its
wastewater treatment plant.


For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100616-10-R-0147.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                          June 16, 2010

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act
          Site Inspection of the High-Rate Water Treatment Facility,
          City of Newark, Ohio
          Report No. 10-R-0147


FROM:	         Melissa M. Heist
               Assistant Inspector General for Audit

TO:	           Susan Hedman
               Regional Administrator, Region 5
               U.S. Environmental Protection Agency


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. The report summarizes the results of our site inspection
of a City of Newark, Ohio, high-rate water facility project.

We performed this site inspection as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our site inspection was to determine
the City’s compliance with selected requirements of the Recovery Act pertaining to the Clean
Water State Revolving Fund program. The Ohio Environmental Projection Agency approved the
City’s project. The City received a $20,360,232 loan, including $5,000,000 in Recovery Act
funds for principal forgiveness.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rate in effect at the time – is $117,789.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
The report will be made available at http://epa.gov/oig. If you or your staff have any questions
regarding this report, please contact Robert Adachi at (415) 947-4537 or adachi.robert@epa.gov,
or Leah Nikaidoh at (513) 487-2365 or nikaidoh.leah@epa.gov.
                                                                                        10-R-0147 



Purpose
The purpose of our review was to determine the City of Newark, Ohio’s, compliance with
requirements for subrecipients of American Recovery and Reinvestment Act of 2009 (Recovery
Act) funds under the Clean Water State Revolving Fund program.

Background

The City received a $20,360,232 loan from the Ohio Environmental Protection Agency and the
Ohio Water Development Authority under the Clean Water State Revolving Fund program. This
amount included $5,000,000 in Recovery Act funds for principal forgiveness. The City will
construct a high-rate treatment facility at its wastewater treatment plant.

Scope and Methodology
Due to the time-critical nature of Recovery Act requirements, we did not perform this
assignment in accordance with generally accepted government auditing standards. Specifically,
we did not perform certain steps that would allow us to obtain information to assess the City’s
internal controls and any previously reported audit concerns. As a result, we do not express an
opinion on the adequacy of the City’s internal controls or compliance with all federal, State, or
local requirements.

We conducted an onsite inspection at the City during December 1-2, 2009. During our
inspection, we:

       1.	 Toured the project
       2.	 Interviewed City and contractor personnel
       3.	 Reviewed documentation maintained by the City or its contractors on the following
           matters:
               a.	 Buy American requirements under Section 1605 of the Recovery Act
               b.	 Davis-Bacon Act wage requirements under Section 1606 of the Recovery Act
               c.	 Contract procurement
               d.	 Financial management and reporting requirements under Section 1512 of the
                   Recovery Act

Results of Site Inspection
Based upon our site inspection, nothing came to our attention that would require action from the
U.S. Environmental Protection Agency, the State of Ohio, or the City. We have summarized
specific inspection results below.

       Buy American Requirements

       The project was exempt from the Buy American requirements. The City qualified for the
       nationwide Buy American requirements waiver for both of its prime contracts. The City
       advertised for bids on December 5, 2008, and opened the bids on January 15, 2009. Both


                                                1

                                                                                    10-R-0147 



the bid advertisement and bid opening dates were within the nationwide Buy American
waiver timeframe of October 1, 2008, to February 17, 2009. The City advertised for bids
in anticipation of receiving funding from the State. Therefore, the City qualifies for the
nationwide Buy American waiver and is exempt from the requirements.

Davis-Bacon Act

We reviewed the City’s compliance with the Davis-Bacon Act, and no issues came to our
attention. To comply with Davis-Bacon Act requirements, contractors signed weekly
payrolls certifying compliance with Davis-Bacon Act rates. The contractors submitted
certified payroll reports to the City’s utilities superintendent. The superintendent
randomly checks the payroll reports to ensure compliance with Davis-Bacon Act
requirements. We reviewed certified payrolls and verified compliance with Davis-Bacon
Act rates.

Contract Procurement

We reviewed the City’s procurement of its contractors, and no issues came to our
attention. The City hired two construction contractors, one for general
construction/HVAC/plumbing work and one for electrical work. Each contract was a
lump-sum agreement. The City awarded the contracts competitively to the lowest bidder
using the sealed-bid method.

Financial Management and Reporting.

We reviewed the Water Pollution Control Loan Fund Agreement that the City entered
into with the State of Ohio on February 12, 2009. We also reviewed the supplement to
the loan agreement that the City signed on July 12, 2009. No issues came to our
attention.

The City initially estimated that it would create or retain approximately 204 jobs due to
the Recovery Act funding it received. We obtained copies of the Recovery Act jobs
created/retained reports the City submits to the Ohio Environmental Protection Agency to
determine the process the City is using to provide information to the State. The State
uses this information to prepare the report required under Section 1512(c) of the
Recovery Act.

Based on our review of the reports, the information provided meets Recovery Act
requirements. In its first quarterly report, the City reported that it created or retained 26.8
jobs from July through September 2009. In its second quarterly report, the City reported
that it had created or retained 24.15 jobs from October through December 2009. In its
third quarterly report, the City reported that it created or retained 18.29 jobs from January
through March 2010, and that the City had completed approximately 33 percent of the
project.




                                           2

                                                                                     10-R-0147 



Recommendations
We have no recommendations.

Subrecipient’s Response and Office of Inspector General Comment
We held an exit conference with the City of Newark on June 9, 2010. The City had no
comments, since the report did not have any findings. The Office of Inspector General also had
no comments.




                                               3

                                                                                                                           10-R-0147



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                             4

                                                                              10-R-0147


                                                                            Appendix A

                                    Distribution

Office of the Administrator
Regional Administrator, Region 5 (Action Official)
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Region 5
Public Affairs Officer, Region 5
Mayor, Newark, Ohio
Director, Ohio Environmental Protection Agency
Acting Inspector General




                                              5

